TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         Prototype Process Improvements
                          Will Benefit Efforts to Modernize
                         Taxpayer Account Administration



                                       November 24, 2010

                              Reference Number: 2011-20-001




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


PROTOTYPE PROCESS                                      structure (task assignments) development,
IMPROVEMENTS WILL BENEFIT                              2) prototype testing documentation,
EFFORTS TO MODERNIZE TAXPAYER                          3) organizational conflict of interest
ACCOUNT ADMINISTRATION                                 documentation, and 4) security documentation
                                                       for contractor personnel working with prototype
                                                       teams.
Highlights                                             The CADE 2 Program Management Office has
                                                       been vigilant in monitoring the prototypes to
Final Report issued on November 24,                    provide direction and support to development
2010                                                   activities. The prototype teams recognized the
                                                       limits in approaching some of the original
Highlights of Reference Number: 2011-20-001            objectives and made modifications to keep the
to the Internal Revenue Service Chief                  prototype activities relevant to future CADE 2
Technology Officer.                                    Program development. However, the ability of
                                                       the CADE 2 Program to process individual
IMPACT ON TAXPAYERS                                    taxpayer accounts as envisioned cannot be
The mission of the Customer Account Data               determined until the prototype results and
Engine (CADE) 2 Program is to provide                  recommendations are understood and
state-of-the-art individual taxpayer account           implemented.
processing and technologies to improve service         WHAT TIGTA RECOMMENDED
to taxpayers and enhance Internal Revenue
Service (IRS) tax administration. Once                 TIGTA recommended that the Chief Technology
completed, the new modernization environment           Officer have the CADE 2 Program Management
should allow the IRS to more effectively and           Office reemphasize compliance with the
efficiently update taxpayer accounts, support          elements of the CADE 2 Prototype Process to
account settlement and maintenance, and                ensure planning, execution, and reporting
process refunds on a daily basis, which will           activities are followed and incorporate guidance
contribute to improved service to taxpayers.           to include: 1) appropriately detailed work
                                                       breakdown structures, 2) testing plans and
WHY TIGTA DID THE AUDIT                                documentation standards that follow Internal
The overall objective of this review was to            Revenue Manual and Enterprise Life Cycle
determine the effectiveness of CADE 2 Program          guidance, 3) effective management of
prototype efforts, including applicable security       contracting activities to ensure that issues
provisions, designed to validate the first phase       concerning organizational conflict of interest are
of development plans.                                  properly managed, and 4) timely completion of
                                                       all necessary security documentation for
WHAT TIGTA FOUND                                       contractor personnel.
The CADE 2 Program Management Office                   In its response to the report, the IRS agreed with
created five prototype teams to demonstrate            TIGTA’s recommendations. The IRS plans to:
confidence in the CADE 2 solution by verifying         1) update the CADE 2 contracting guidelines,
system viability and performance and by                2) embed Contracting Officer’s Technical
defining components that will serve as the             Representatives within the CADE 2 Program
foundation for development activities. The             Management Office to assist future prototype
prototype teams generally managed their                teams, 3) update the CADE 2 Program
objectives effectively. The teams also identified      Management Plan’s Prototype Process
risks that faced the successful execution of the       document, and 4) update the Prototype Lessons
prototype plans and took steps to overcome the         Learned presentation to address TIGTA’s
barriers.                                              findings.
The CADE 2 Program Management Office can
improve management of: 1) work breakdown
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         November 24, 2010


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Prototype Process Improvements Will Benefit
                             Efforts to Modernize Taxpayer Account Administration
                             (Audit # 201020004)

 This report presents the results of our review of the Customer Account Data Engine 2 Program
 prototype efforts. The overall objective of this review was to determine the effectiveness of
 Customer Account Data Engine 2 Program prototype efforts, including applicable security
 provisions, designed to validate Transition State 1 development plans. This review was included
 in our Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge of
 Modernization of the Internal Revenue Service. Management’s complete response to the draft
 report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by
 the report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-5894.
                                    Prototype Process Improvements Will Benefit
                               Efforts to Modernize Taxpayer Account Administration




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Customer Account Data Engine 2 Program Initiated
          Prototypes to Aid the Modernization of Individual
          Taxpayer Account Administration ................................................................ Page 4
          Prototype Teams Generally Managed the Objectives
          Effectively ..................................................................................................... Page 5
          The Customer Account Data Engine 2 Program Identified
          Risks to the Prototype Efforts ....................................................................... Page 9
          Process Improvements Will Help the Prototypes Achieve
          the Objectives and Make Future Prototype Efforts More
          Efficient and Effective .................................................................................. Page 10
                    Recommendation 1:........................................................ Page 16

          Customer Account Data Engine 2 Program Implementation
          Is Dependent on the Prototype Results ......................................................... Page 17

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 18
          Appendix II – Major Contributors to This Report ........................................ Page 21
          Appendix III – Report Distribution List ....................................................... Page 22
          Appendix IV – Enterprise Life Cycle Overview .......................................... Page 23
          Appendix V – Customer Account Data Engine 2 Transition States ............ Page 25
          Appendix VI – Glossary of Terms ................................................................ Page 29
          Appendix VII – Management’s Response to the Draft Report ..................... Page 32
             Prototype Process Improvements Will Benefit
        Efforts to Modernize Taxpayer Account Administration




                  Abbreviations

CADE        Customer Account Data Engine
IRS         Internal Revenue Service
TIGTA       Treasury Inspector General for Tax Administration
                                 Prototype Process Improvements Will Benefit
                            Efforts to Modernize Taxpayer Account Administration




                                               Background

In August 2008, the Internal Revenue Service (IRS) Commissioner established the Modernized
Taxpayer Account Program Integration Office to manage the transition of current individual
income tax processing, which consists of multiple computer systems for processing tax returns,
payments, and other transactions that affect individual
taxpayer accounts. Working in conjunction with IRS
business owners, the Program Integration Office decided       The IRS Commissioner directed
to integrate elements from both the existing Individual      the CADE 2 Program Management
            1                                                 Office to build on the substantial
Master File and current Customer Account Data Engine           progress accomplished by the
(CADE) processes into a new CADE 2 Program. The                current CADE and leverage its
proposed plan incrementally transfers taxpayer accounts            lessons learned to date.
from the current Individual Master File and CADE
processing systems to a new CADE 2 relational database.
The CADE 2 Program strategy involves three phases:
      y    Transition State 1 will modify the Individual Master File to run daily (currently
           individual taxpayer accounts are processed on a weekly basis) and establish a new
           relational database to store all individual taxpayer account information. This phase will
           also provide tools for the IRS to more effectively use the data for compliance and
           customer service. The IRS plans to implement Transition State 1 in January 2012.
      y    Transition State 2 will put a single processing system in place. Applications will directly
           access and update the taxpayer account database, and continued effort will be made in
           addressing previously identified financial material weaknesses. The IRS is performing
           additional analysis to establish an estimated date for Transition State 2 implementation.
      y    Target State will consist of a single system using elements of the Individual Master File
           and the current CADE and will eliminate all transitional components such as those used
           to link the current CADE, the Individual Master File, and the Integrated Data Retrieval
           System. Further, the complete solution plans to address all financial material weaknesses
           identified at the inception of the Modernized Taxpayer Account Program. The IRS is
           performing additional analyses to establish an estimated date for the Target State to be
           implemented.
Appendix V presents conceptual models of the as is, transition, and target state individual
income tax account processing.



1
    See Appendix VI for a glossary of terms.
                                                                                               Page 1
                              Prototype Process Improvements Will Benefit
                         Efforts to Modernize Taxpayer Account Administration



 The CADE 2 Program was established in June 2009 and published its charter in January 2010,
 with the mission to provide state-of-the-art individual taxpayer account processing and
 technologies to improve service to taxpayers and enhance IRS tax administration. The CADE 2
 Program plans to accomplish this by creating a modernized processing environment that supports
 daily account posting and settlement capabilities where applications access and update an
 authoritative relational database that will house all individual taxpayer account data. This will
 enable the IRS to improve the accuracy and speed of individual taxpayer account processing,
 enhance the customer experience through improved access to account information, and increase
 the effectiveness and efficiency of agency operations. The CADE 2 Program charter established
 goals and defined its scope. Figure 1 presents the goals and scope of the CADE 2 Program.
                         Figure 1: CADE 2 Program Goals and Scope

                                          CADE 2 Program Goals
 Establish a solid data foundation for the future by leveraging relational database processing
 capability.
 Address financial material weaknesses, demonstrate compliance with Federal Financial
 Management System Requirements, and maintain a clean audit opinion.
 Improve security and privacy posture by addressing identified weaknesses.
 Continue the focus on moving away from 1960’s technology (i.e., aging infrastructure,
 applications, and sequential flat file processing).
 Demonstrate substantive progress toward achieving long-term viability.


                                        CADE 2 Program Scope
 Establish the authoritative database for individual taxpayer accounts.
 Replace the current Individual Master File applications and current CADE applications with a
 single, state-of-the art solution.
 Expand the Integrated Production Model to include individual taxpayers and individual
 taxpayer accounts.
 Provide daily outputs to the Integrated Data Retrieval System and other downstream systems as
 they are able to support daily processing.
Source: CADE 2 Program Charter Version 1.0, dated January 28, 2010.

 While the CADE 2 Program and IRS business owners have established conceptual models to
 attain these goals within a defined scope, a consensus still needs to be reached on key


                                                                                             Page 2
                            Prototype Process Improvements Will Benefit
                       Efforts to Modernize Taxpayer Account Administration



implementation approaches and on the best technology choices. To accomplish this, the
following five prototype teams have been created to settle the remaining uncertainties:
   1. Java Programming Language for the CADE 2 Solution.
   2. Database/Extract Transform and Load.
   3. Penalty and Interest Calculation.
   4. Performance Modeling and Monitoring.
   5. Database Performance Test.
The objective of each prototype is to demonstrate confidence in the CADE 2 Program approach
by verifying system viability and performance and by defining components that will serve as the
foundation for development activities.
This review was performed at the Modernization and Information Technology Services facilities
in New Carrollton and the Office of Procurement in Oxen Hill, Maryland, during the period
February through July 2010. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                            Page 3
                              Prototype Process Improvements Will Benefit
                         Efforts to Modernize Taxpayer Account Administration




                                    Results of Review

The CADE 2 Program Management Office took steps to formulate and initiate prototype efforts.
These steps included development of program guidance and prototype processes, and steps to
identify and manage risks related to the prototyping efforts. Further, the CADE 2 Program
Management Office took actions to monitor and evaluate progress in accomplishing the
prototype objectives. These actions included the recognition of the risks to the CADE 2 Program
strategy previously identified – Audit Risk, Delivery Risks, Funding and Schedule Risks,
Operational Risks, People Risks, and Technical/Complexity Risks. We also recognize the
CADE 2 Program Management Office is addressing challenges the Treasury Inspector General
for Tax Administration (TIGTA) offered in our December 2009 report.2

The Customer Account Data Engine 2 Program Initiated Prototypes to
Aid the Modernization of Individual Taxpayer Account Administration
On October 14, 2009, the CADE 2 Program initiated its prototype efforts to accomplish the
following objectives:
    y   Settle uncertainties in technology and solution approach.
    y   Gain confidence in system viability and performance.
    y   Define effective and proven design patterns.
    y   Define components that serve as a foundation for the formal development.
    y   Establish an agile and rapid development methodology.
    y   Build architectural foundations that can be leveraged for the entire IRS.
The CADE 2 Program initially proposed four specific prototypes to address the above objectives:
1) Java Programming Language for the CADE 2 solution; 2) Database/Extract Transform and
Load to identify account changes, extract, transform, and load taxpayer data to the database and
use the CADE database for extracts and viewing; 3) Penalty and Interest Calculation
performance and integration of common code with Java applications; and 4) Performance
Modeling and Monitoring. The CADE 2 Program later added another prototype effort –
Database Performance Test Prototype 5.



2
 Reengineering Individual Tax Return Processing Requires Effective Risk Management (Reference
Number 2010-20-001, dated December 7, 2009).
                                                                                                Page 4
                            Prototype Process Improvements Will Benefit
                       Efforts to Modernize Taxpayer Account Administration



The initiation also outlined a delivery model designed with an iteration cycle that includes steps
to plan, design, build, test, and evaluate prototype progress. Further, the initiation provides a
governance structure with related roles and responsibilities that includes an executive sponsor
and prototype manager assigned to each prototype. The governance also includes a CADE 2
Prototype Management and Integration Lead whose responsibilities are to:
   y   Coordinate activities across the prototypes and integrate schedules and dependencies
       across all prototypes.
   y   Engage partner organizations as appropriate (e.g., Computing Centers for access to
       resources).
   y   Manage the integrated prototype plan and collect and distribute status from prototype
       teams.
   y   Establish an agenda and chair the CADE 2 Prototype Advisory Council.
   y   Facilitate identification and capture of risks and develop mitigation strategies.
   y   Capture action items related to prototypes and manage common action item log.
Further work was developed through the Program Management Office to develop the CADE 2
Prototype Process. This guidance was issued January 15, 2010, and provides a structured
prototype process to help identify, define, assess, select, plan, execute, and monitor prototypes.

Prototype Teams Generally Managed the Objectives Effectively
To ensure that it is able to operate effectively and achieve its goals, the IRS has established a
well-defined governance structure for the CADE 2 Program. The governance structure has
assigned decision-making authority and designed the accountability framework to encourage
desirable behavior. The IRS has also identified a set of “enabling characteristics” for CADE 2
Program governance. These characteristics serve as evaluation criteria as the IRS establishes
governance standards, processes, procedures, and templates for the CADE 2 Program.
The governance structure includes a Program Governance Board, Program Management Office,
executive sponsors, the Chief Architect, prototype project managers, and prototype advisors.
Also, the CADE 2 Prototype Management and Integration Lead has effectively fulfilled the
proposed responsibilities including coordinating activities among prototypes and with the
CADE 2 Program Management Office. The Lead has also monitored and communicated
prototype development progress with regular status meetings that include identification,
assessment, and resolution of risks at the prototype level.




                                                                                             Page 5
                           Prototype Process Improvements Will Benefit
                      Efforts to Modernize Taxpayer Account Administration



The prototype effort included
formulation of objectives and                        Enabling Characteristics of the
proposed deliverables for each                       CADE 2 Program Governance
prototype, the approach to           y   Foster rapid decision-making, proactive risk management,
achieving the objectives, and            and issue resolution.
estimates of the schedule and        y   Promote accountability for Program success at multiple
duration of the prototypes.              levels.
Resource needs including             y   Ensure that the appropriate stakeholders are making the
hardware, software, and IRS and          decisions and all the required stakeholder groups are
contracted staffing needs were           represented.
identified.                          y   Ensure that the right data are presented when decisions
                                         are required.
Each prototype team focused its
work relative to defined CADE 2      y   Structure decision-making authority so that decisions can
Program Transition States. We            be made at the appropriate level – allowing decisions to
                                         be made by those most affected by them, without creating
assessed each prototype team’s           undue risk for the Program.
work in addressing the objectives
related to Transition State 1.       y   Ensure that all decisions are clearly documented and
                                         communicated and provide an “audit trail” about how,
                                         when, and why decisions were made.



Java Programming Language for the CADE 2 Solution Prototype 1
The Prototype 1 team began its work on December 11, 2009. The prototype work was originally
planned to last approximately 8 months, with a completion date of July 30, 2010. The original
objectives for the Prototype 1 team were to:
   y   Define effective and proven design and development patterns that are the basis for design
       and development of the CADE.
   y   Examine the performance and scalability for high-performance batch posting and
       financial settlement applications using Java programming language.
   y   Define an effective Common Operating Environment for Java components.
The Prototype 1 team accomplished its objectives and provided deliverables that included
identifying the Java Common Operating Environment for the CADE 2 Program and a database
of taxpayer accounts for testing prototype applications under various account and load
conditions. Initial test results demonstrated that Java has adequate performance capability,
scalability, and viability.




                                                                                         Page 6
                           Prototype Process Improvements Will Benefit
                      Efforts to Modernize Taxpayer Account Administration



Database/Extract Transform and Load Prototype 2
The Database/Extract Transform and Load Prototype 2 team began its work on
December 17, 2009. The prototype work was originally expected to last approximately 6 months
with a completion date of June 30, 2010. The original objectives for the Prototype 2 team were
to:
   y   Evaluate approaches to extract changes from the Individual Master File, transform to a
       database format, and load the CADE database.
   y   Evaluate approaches to accomplish Integrated Data Retrieval System extracts from
       individual accounts on the CADE database.
The prototype team successfully demonstrated the use of the Informatica tool on the IRS
platform to extract taxpayer data from the Individual Master File and transform the data into a
compatible format to load the data onto the CADE 2 database. However, the prototype team
experienced several setbacks leading to scope changes in the prototype objectives. These
setbacks involved:
   y   Contract issues that delayed access to key resources.
   y   Analysis and design work that took longer than planned.
   y   Unforeseen technical issues that arose related to the movement of data between systems.
The scope changes by the CADE 2 Program Management Office in May 2010, based on the
prototype team findings, resulted in a material course correction to the original Prototype 2 work.
Additional analysis and testing relating to the use and capabilities of the Informatica tool was
removed for the prototype scope at that time. Prototype 2 was originally planned to develop
solution patterns to accomplish daily processing time frames. However, performance testing of
the database to confirm the ability to achieve daily income tax account processing routines was
broadened to include a more comprehensive database performance test and shifted to a new
Prototype 5 (Database Performance Test).
With the rescoping of the prototypes, the Prototype 2 team took steps to reduce program-level
risks related to the development of the CADE 2 Program Transition State 1 Data Implementation
project. It redefined the scope of work for Prototype 2 (Database/Extract Transform and Load)
and defined the scope of work Prototype 5 (Database Performance Test). Further, the
Prototype 2 team, in conjunction with the Program Management Office, secured additional
funding to extend contractor support for resources to complete both Prototype 2 and Prototype 5.

Penalties and Interest Calculation Prototype 3
The Penalties and Interest Calculation Prototype 3 team began its work on December 1, 2009.
This team’s work relates to the IRS’s calculations of penalty and interest charges applied to
delinquent individual taxpayer accounts. The prototype work was originally planned to last

                                                                                            Page 7
                           Prototype Process Improvements Will Benefit
                      Efforts to Modernize Taxpayer Account Administration



approximately 5 months with a completion date of April 30, 2010. The original objectives for
the Prototype 3 Team were to:
   y   Analyze existing Penalties and Interest C-Language code and other common code
       modules to determine reasons for poor performance and memory leaks.
   y   Recommend changes to allow common calculations for the CADE 2 solution, the
       Business Master File, and the Integrated Data Retrieval System.
The Penalty and Interest Calculation Prototype 3 team successfully completed its work for
Transition State 1 activities on April 21, 2010. The Prototype 3 Penalty and Interest Transition
State 1 Performance Analysis and Improvement Enhancements for C-Common Code Report was
timely completed on April 27, 2010. The Prototype 3 team initially reported reductions in
penalty and interest processing time by as much as 50 percent. In July 2010, the Prototype 3
team reported further reductions in processing time. The IRS has deployed these enhancements
into the current processing environment.

Performance Modeling and Monitoring Prototype 4
The Performance Modeling and Monitoring Prototype 4 team began its work on
December 11, 2009, with its work expected to continue through the life of the CADE 2 Program.
The CADE 2 Program plans to use this team to provide further performance modeling and
requirements as the CADE 2 development activities advance. The original Transition State 1
objectives for the Prototype 4 team were to:
    y Create a performance model that is based on the workload that must be processed in each
      transition state.
    y Define the performance requirements and performance budgets for major design
      components for Transition State 1.
Work related to designing and building the performance model for Transition State 1 was
completed on April 8, 2010. This included providing initial Transition State 1 performance
specifications for Prototypes 1, 2, and 3. Work on the final prototype specifications was
completed September 17, 2010.

Database Performance Test Prototype 5
The Database Performance Test Prototype 5 team was proposed on June 26, 2010, and approved
by the CADE 2 Governance Board on July 26, 2010. The prototype work is planned to last
approximately 5 months, with a completion date of November 30, 2010. The objective for the
Prototype 5 team is to set effective and proven design and development patterns that will
establish the basis for design and development work, assuring all processing demands can be
satisfied.


                                                                                         Page 8
                            Prototype Process Improvements Will Benefit
                       Efforts to Modernize Taxpayer Account Administration



The Customer Account Data Engine 2 Program Identified Risks to the
Prototype Efforts
We assessed prototype team actions taken to identify and manage risks, including contractor
management and the need to provide appropriate security measures. The Prototype Management
and Integration Lead, along with the prototype teams, adequately identified risks that faced the
successful execution of the prototype plans. These risks included the availability of resources
and the scope of work.
The prototype teams initially experienced concerns related to securing contractor support and
managing resource contention issues. Each prototype team was able to use its existing staff or
obtained sufficient qualified staff to manage identified risks to accomplish the objectives. The
process used to identify prototype requirements is acceptable, and there are adequate controls in
place to manage changes (e.g., the CADE 2 Governance Board, the prototype sponsors, and the
Chief Architect). Further, the work performed by the prototype teams specifically addresses
assigned objectives, and controls are in place for all prototype teams to clearly understand when
they have completed prototype activities and are entering CADE 2 Program Transition State 1
development activities.

Organizational Conflict of Interest Mitigation Plans were established for
contractors working on the CADE 2 prototypes
The Federal Acquisition Regulation states that an organizational conflict of interest occurs when,
because of other activities or relationships, a person or entity is unable or potentially unable to
render impartial assistance or advice to the government, or their objectivity in performing the
contract work is or might otherwise be impaired, or they may have an unfair competitive
advantage. The CADE 2 Program Management Office took steps to address organizational
conflicts of interest early in the acquisition process. Organizational Conflict of Interest
Mitigation Plans for each contractor on the prototype teams included an individual
nondisclosure agreement, established a “firewall” for a period of at least 6 months and up to
2 years after completion of performance, provided Organizational Conflict of Interest Mitigation
Plan training, and included plan monitoring.
In addition, two of the Organizational Conflict of Interest Mitigation Plans provided some
avoidance of the organizational conflict of interest by not allowing contractor personnel to
participate with the IRS in drafting requirements related to competitive follow-on acquisition
efforts and incorporated an organizational conflict of interest analysis in their step review
process for new proposal activity.




                                                                                            Page 9
                           Prototype Process Improvements Will Benefit
                      Efforts to Modernize Taxpayer Account Administration



The prototype teams considered appropriate Federal Government and IRS
security guidelines as part of the prototype analyses.
As the work progressed, the prototype teams gave more consideration to the security provisions.
For example, in April 2010, one of the prototype teams made an effort to ensure its contractors
have access to the IRS Web sites that contain the security and architecture requirements. In
addition, nearly all of the 40 contractor employees timely completed the required Fiscal
Year 2010 Annual Security Awareness Training. Only three contractors had not completed the
training by the designated due date.
Subsequently, on June 3, 2010, a meeting was held with the Cybersecurity and Infrastructure
Architecture and Engineering offices to provide a technical overview of the CADE 2 Prototype
efforts and to determine the level of Cybersecurity office involvement. This meeting laid the
foundation for more opportunities of Cybersecurity office involvement with the prototypes by
establishing Cybersecurity office points of contact for future meetings.

Process Improvements Will Help the Prototypes Achieve the
Objectives and Make Future Prototype Efforts More Efficient and
Effective
We analyzed prototype team plans, actions, and documentation to meet their objectives. Our
analyses found the CADE 2 Program Management Office can improve management of the
following activities.

Work breakdown structure development and detail
A work breakdown structure is a project management tool used to define and group a project’s
individual work elements (or tasks) in a way that helps organize and define the total work scope
of the project. Further, it provides the necessary framework for detailed cost estimating and cost
control, along with providing guidance for schedule development and schedule control. It forms
the basis for dividing work into definable increments from which a statement of work can be
developed and technical, schedule, cost, and labor-hour reporting can be established.
Prior to startup activities, each prototype team, working in conjunction with the Prototype
Management and Integration Lead and the contractor, created its own work breakdown structure
to manage day-to-day activities. However, three of the four prototype teams did not develop
effective work breakdown structures.
The Prototype 1 (Java) work breakdown structure provided the detail necessary to timely
accomplish its objectives. However, the Prototype 2 (Database/Extract Transform and Load)
work breakdown structure tasks were incomplete and, as a result, the team did not timely
complete assigned objectives. While the Prototype 3 (Penalties and Interest) and Prototype 4


                                                                                          Page 10
                            Prototype Process Improvements Will Benefit
                       Efforts to Modernize Taxpayer Account Administration



(Performance) work breakdown structures needed additional task decomposition, the teams were
able to timely complete assigned objectives.
Prototypes 2, 3, and 4 subsequently published effective work breakdown structures in June 2010.
Each prototype team updated its tasks on a weekly basis and was able to effectively manage
day-to-day activities by documenting the work completed and the work remaining for each task.
In July 2010, 9 months after prototype planning activities began, work breakdown structures for
each prototype were finally incorporated into the CADE 2 Program Transition State 1 Integrated
Master Schedule.
The absence of effective work breakdown structures during the early stages of prototype
development occurred for several reasons. The initial CADE 2 Prototype planning meeting for
the prototypes took place in October 2009. At this meeting, required objectives and deliverable
dates were identified for each prototype. By mid-January 2010, work on all four prototypes was
well underway, but it was not until February 2010 that the CADE 2 Program Management Office
drafted integrated master schedule and work breakdown structure guidelines. These guidelines
required work breakdown structure activities and tasks to be decomposed into segments which
could be completed within 10 business days. The guidelines also required the identification of
all known dependencies, Enterprise Life Cycle artifacts and work products, and resource
assignments.
The CADE 2 Program Management Office guidelines targeted Enterprise Life Cycle preliminary
and detailed design work stages and exempted vision and strategy, project initiation, and domain
architecture stage activities and deliverables. However, the guidelines did not clearly specify
prototype work as part of its directive. As a result, three of the four prototype teams did not use
the guidelines to develop their work breakdown structures until prototype work was in the final
stages of completion.
The absence of an effective work breakdown structure
during the early stages of Prototype 2 development
                                                                The CADE 2 Program Transition
negatively affected the completion of its original objectives.
                                                                   State 1 Integrated Master
The absence contributed in part to the setbacks experienced      Schedule did not incorporate
by the Prototype 2 team in managing contract, design work,      comprehensive prototype work
and unforeseen technical issues. These issues required the        breakdown structures until
prototype team to reduce scope and delay its original              9 months after prototype
                                                                       planning began.
delivery date from June 30, 2010, to October 4, 2010. In
May 2010, a deliverable that would have added complexity
to the previously processed taxpayer data by adding tables and more capabilities was removed to
address the rescheduling. In June 2010, the scope was further reduced by moving performance-
related deliverables to a new Prototype 5 (Database Performance Test).




                                                                                           Page 11
                           Prototype Process Improvements Will Benefit
                      Efforts to Modernize Taxpayer Account Administration



Since performance is a major concern, Prototype 5 must define, implement, and demonstrate its
ability to be expanded to the current processing environment. The original schedule called for
the new prototype to deliver its results by November 30, 2010. However, in July 2010, the
CADE 2 Governance Board approved a new proposal to return several performance tests to
Prototype 2 and defer two Prototype 2 deliverables (i.e., Integrated Data Retrieval System and
Corporate On-line Files solutions) to CADE 2 Program Transition State 1 activities. While this
action moved the Prototype 5 delivery date up to September 29, 2010, the CADE 2 Program
Transition State 1 Database Implementation Project’s preliminary design delivery date was
rescheduled from September 29, 2010, to December 23, 2010.
The absence of an effective work breakdown structure during
the early stages of Prototype 2 development may also                The absence of an effective
negatively affect the CADE 2 Program Transition State 1              work breakdown structure
Database Implementation Project. The Project’s physical              during the early stages of
design, which describes how the new CADE 2 relational                Prototype 2 development
                                                                      negatively affected the
database processing will be performed, requires delivery of          completion of the original
Prototypes 2 and 5 results by December 15, 2010, to allow            prototype objectives and
time to complete the detailed design activities. While the             may affect the CADE 2
revised schedules for Prototypes 2 and 5 allow some reserve         Transition State 1 Database
for further rescheduling, a delay in completion of the Data           Implementation Project
                                                                         design activities.
Implementation Project’s physical design could put the
planned Transition State 1 January 2012 delivery in jeopardy.

Prototype testing documentation
Test result documentation provides evidence to support the conclusion and/or recommendations
for each prototype. The Internal Revenue Manual and the Enterprise Life Cycle provide
guidance for documenting test plans and test results.
   y   The Internal Revenue Manual provides guidance in the form of Test, Assurance, and
       Documentation Standards and Procedures.
   y   The Enterprise Life Cycle requires projects to maintain test plans and test results,
       including issues logs. Test plans provide a blueprint of what is to be tested and ensures
       business requirements and specifications are not missed. In addition, a well-developed
       test plan ensures requirements and specifications are functionally met and will be
       operating in production. Test results documentation provides evidence to support the
       conclusion and/or recommendations for each prototype. Test results documentation also
       provides assurance and evidence that business requirements are met and defects are
       resolved or approved. An issues log provides for an audit trail of issues and/or defects
       identified through testing. A well-developed issues log should include, but is not limited
       to, the status of each issue, resolution, date found, date resolved, and approval to pass on


                                                                                           Page 12
                            Prototype Process Improvements Will Benefit
                       Efforts to Modernize Taxpayer Account Administration



       an issue. These “best practices” will enhance requirements gathering, design, and
       development procedures.
The Prototype 1, Prototype 2, and Prototype 3 teams did not initially document test plans, test
results, and issues logs. Due to the nature of the work in Prototype 4, test plans, test results, and
issues log were not required. In April 2010, we discussed the status of prototype efforts with the
prototype managers, including the plans for testing and evidence about the results to date. The
prototype managers did not have this information documented at that time and subsequently took
actions to document their test plans, test results, and maintain issues logs. However, when
comparing the work performed by the prototype teams to document the testing activities to the
Enterprise Life Cycle templates, the following were omitted:
   y   Assumption and Constraints.
   y   Entrance and Completion (Exit) Criteria.
   y   Defect Summary (including defects found and resolved and defects unresolved).
In July 2010, we presented these omissions to the CADE 2 Program executives, prototype
managers, and prototype team members. They agreed with our analysis and took additional
corrective actions to be applied to subsequent testing. The Prototype 1 work is complete and
included all of the critical elements identified above. The Prototype 2 and Prototype 3 teams will
apply our suggestions in all future testing.
The CADE 2 Program Prototype Process document provides a high-level framework for
achieving CADE 2 prototype objectives. However, during the audit process, gaps were
identified between the CADE 2 Program Prototype Process document and the Enterprise Life
Cycle. Specifically, insufficient detail in test plans, test result documents, and issues logs can
have the following results:
   y   Without test plans, inclusion of relevant business requirements needed for testing may be
       omitted. Missed requirements can result in costly rework.
   y   Without adequate test results documentation, there may not be sufficient evidence
       showing all necessary requirements were tested. Also, test results provide details about
       the types of test performed. Without adequate documentation, retesting of failed tests
       (defects) would be difficult. Inadequate test results documentation could result in
       deployment of applications that do not include the expected capabilities.
   y   Without an issues log, the same issue/defect could recur without having the previous
       resolution readily available. When defects requiring resolution are not resolved,
       subsequent processing can be negatively affected. System downtime and costly
       reprogramming can result.




                                                                                             Page 13
                            Prototype Process Improvements Will Benefit
                       Efforts to Modernize Taxpayer Account Administration



Organizational conflict of interest documentation
The Federal Acquisition Regulation requires a written analysis, including a recommended course
of action, for avoiding, neutralizing, or mitigating an identified organizational conflict of interest.
IRS policy provides that when a conflict or potential conflict has been identified, the contracting
officer may require the contractor to submit a mitigation plan. If a plan is required, the plan’s
actions should be included in the contract.
Further, IRS policy and procedures require a nondisclosure agreement for contractor personnel to
access Sensitive But Unclassified information. Each nondisclosure agreement will reference the
conditional nature of access to Sensitive But Unclassified information with respect to the
contract work, or specialized project, for which such access is required. The IRS should sign and
date these agreements prior to granting access to Sensitive But Unclassified information.
Although the CADE 2 Program Management Office recognized and took actions with plans to
manage organizational conflict of interest concerns, further improvements are necessary to
address the following conditions:
   y   A documented acquisition strategy does not exist for two vendors although their work on
       the prototypes posed an organizational conflict of interest.
   y   A process does not exist to track prototype contractors’ restrictions in future contracts.
   y   Issues with four Organizational Conflict of Interest Mitigation Plans reviewed showed
       one plan was not timely executed, two plans were not signed by both the IRS and the
       contractor, and three plans did not provide consequences of noncompliance.
   y   Contract clauses did not incorporate actions agreed upon in the Organizational Conflict of
       Interest Mitigation Plan (i.e., the nature of the organizational conflict of interest and
       duration of the proposed restraints) and the contract language provided in the IRS’s
       Organizational Conflict of Interest Policy and Procedures.
   y   Nondisclosure agreements for contractors working on the CADE 2 prototype teams were
       not always timely and properly completed. In the nondisclosure agreements required for
       34 contractor employees, we found:
       o 21 nondisclosure agreements were untimely because they were not fully executed
         prior to providing the contractors access to Sensitive But Unclassified information on
         IRS systems and/or not executing the agreements prior to allowing staff-like access to
         the contractors.
       o 10 nondisclosure agreements were not properly completed. These agreements did not
         reference the specific task orders requiring limited access to Sensitive But
         Unclassified information or did not include the required signature and date of
         appropriate IRS personnel.


                                                                                              Page 14
                           Prototype Process Improvements Will Benefit
                      Efforts to Modernize Taxpayer Account Administration



These conditions existed because the appropriate IRS personnel were not familiar with the
Federal Acquisition Regulation as it relates to organizational conflict of interest provisions and
Department of the Treasury requirements for nondisclosure agreements. When organizational
conflict of interests are not properly managed, unfair competitive advantages can result which
compromises the integrity of the procurement process. When agencies fail to take appropriate
actions to address these unfair advantages, the Government Accountability Office and Court of
Federal Claims have sustained protests based on an agency’s violation of the organizational
conflict of interest provisions of the Federal Acquisition Regulation. Also, there is an increased
threat of improper disclosure of sensitive information in which violations are punishable by both
civil and criminal penalties. Lastly, the cost and delay associated with resolving potential
organizational conflicts of interest after-the-fact adversely affects agency programs and the
public interest.

Security documentation
A minimum background investigation must be completed prior to allowing contractors staff-like
access approval. Further, contractor employees who require a password or access to an IRS
system remotely must be approved for staff-like access before an Online 5081 (Information
System User Registration/Change Request) is initiated.
Contractors’ security documentation included minimum background investigation information
and Live Data Requests/Waivers. The minimum background investigation information granting
contractors staff-like access was completed timely for all but three contractors. One of these
three contractors was given access to IRS systems prior to the completion of their minimum
background investigation. Two other contractors required issuance of a new Memorandum of
Final Staff-Like Access Approval because their previous minimum background investigation
information was for a previous contract.
IRS policy and procedures provide that when a live data request is made, a Live Data Request (or
Waiver) Packet has to be completed, reviewed, and approved by the IRS Office of Privacy. At a
minimum, the live data request must include a detailed description/justification for the live data
request, a justification for why live data must be used in lieu of sanitized live data or simulated
test data, a plan for the creation of simulated test data for future use, and the security risks
associated with the use of the live data being requested, in addition to proposed mitigation
strategies.
Although the IRS generally met the minimum requirements, live data request documentation
allowing contractors to work with live taxpayer data was not adequate for one of the two
prototype teams that are using live data. The Prototype 2 team submitted five live data requests.
   y   Two requests did not include approval pages with signatures and approval dates.
   y   One request was incomplete and did not reference the contract work.


                                                                                          Page 15
                            Prototype Process Improvements Will Benefit
                       Efforts to Modernize Taxpayer Account Administration



   y   One request was submitted that did not include the IRS Office of Privacy approval and
       specified a time period that had already passed.
   y   One request did not have documentation that readily identified the specific contractors to
       be provided access to live taxpayer data.
Protecting individuals’ privacy requires adhering to established privacy and security safeguards
when handling individual’s personal data within a live data testing setting. Organizations often
prefer to use live data (data that will be used in production) during testing because they can offer
a real-world setting. However, use of live data can pose significant risk to the public and the IRS
and, in many cases, may not be necessary. Use of live data is strictly prohibited without proper
completion of a Live Data Request and prior approval. Disclosure and security laws provide
criminal and civil penalties for noncompliance.

Recommendation
Recommendation 1: To address the controls and activities to help ensure success of
prototype activities, the Chief Technology Officer should have the CADE 2 Program
Management Office reemphasize compliance with the elements of the CADE 2 Prototype
Process to ensure planning, execution, and reporting activities are followed. Specifically, the
processes and activities to be emphasized should include the following:
   1. Appropriately detailed work breakdown structures that are developed prior to initiating
      work that will also provide a meaningful Integrated Master Schedule.
   2. The use of testing plans and documentation standards following the guidance provided in
      the Internal Revenue Manual and the Enterprise Life Cycle.
   3. Timely and effective oversight for contracting activities to ensure that issues concerning
      organizational conflict of interest are properly managed.
   4. Timely completion of all necessary security documentation for contract personnel
      associated with prototype teams.
       Management’s Response: The IRS agreed with our recommendations. The IRS
       plans to: 1) update the CADE 2 contracting guidelines, 2) embed Contracting Officer’s
       Technical Representatives within the CADE 2 Program Management Office to assist
       future prototype teams, 3) update the CADE 2 Program Management Plan’s Prototype
       Process document, and 4) update the Prototype Lessons Learned presentation to address
       TIGTA’s findings.




                                                                                            Page 16
                           Prototype Process Improvements Will Benefit
                      Efforts to Modernize Taxpayer Account Administration



Customer Account Data Engine 2 Program Implementation Is
Dependent on the Prototype Results
Prototypes provide an organization the opportunity to develop and assess models for business
solutions. The CADE 2 Program prototype effort initiated prototypes with relevant objectives to
help achieve a level of confidence about the viability of potential business solutions. As
previously discussed, the original prototype efforts either met the originally planned objectives
or modified the objectives to obtain a more relevant understanding of the potential capabilities
the CADE 2 Program may deliver.
The CADE 2 Program Management Office has been vigilant in monitoring the prototypes to
provide direction and support to development activities. The prototype teams recognized the
limits in approaching some of the original objectives and made modifications to keep the
prototype activities relevant to future CADE 2 Program development. However, the ability of
the CADE 2 Program to process individual taxpayer accounts as envisioned cannot be
determined until the prototypes results and recommendations are understood and implemented.
In our December 2009 report, we identified challenges the CADE 2 Program faced if it was to
deliver a successful system to process individual tax accounts. One of these challenges was to
develop contingency plans in the event that the new CADE Strategy cannot be fully
implemented. For example, what are the options if the Individual Master File programs cannot
be modified to run daily or as frequently as needed? The approach by the CADE 2 Program
Management Office in facing these challenges, including the development of contingency plans,
will be clearer as the prototype results and recommendations are determined.




                                                                                         Page 17
                                 Prototype Process Improvements Will Benefit
                            Efforts to Modernize Taxpayer Account Administration



                                                                                          Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the effectiveness of CADE 2 Program
prototype efforts, including applicable security provisions, designed to validate Transition
State 1 development plans. To accomplish the objective, we:
I.         Determined whether the prototypes achieved their objectives by verifying system
           viability, performance, and security requirements that serve as the foundation for
           development activities.
           A. Obtained general information about each of the prototype activities including staffing
              assigned; meeting schedules; and prototype documents such as charters, prototype
              plans, and meeting minutes.
           B. Reviewed and assessed Prototype 1 (Java Programming Language1 for the CADE 2
              solution) team efforts to determine whether:
               1. Adequate prototype development plans for the CADE 2 Common Operating
                  Environment and testing strategy were prepared.
               2. An assessment was made of the Java programming language’s viability for use in
                  the CADE 2 solution.
           C. Reviewed and assessed Prototype 2 (CADE 2 Database/Extract Transform and Load)
              team efforts to complete planned objectives and deliverables to determine whether:
               1. A CADE 2 database with populated test data containing 1 percent of the
                  Individual Master File was developed with:
                    a. The ability to process a day’s work within a day.
                    b. Specifics about tax module data, entity data, or any other data used.
                    c. Daily quality, including the ability to identify and reject invalid data.
                    d. Time periods for delivery of the test database to the Prototype 1 (Java) team.
               2. Informatica viability was used to extract, transform, and load data from the
                  Individual Master File and the current CADE to the CADE 2 database.




1
    See Appendix VI for a glossary of terms.
                                                                                                   Page 18
                           Prototype Process Improvements Will Benefit
                      Efforts to Modernize Taxpayer Account Administration



          3. Solution patterns provided data extracts from the CADE 2 database to the
             Integrated Data Retrieval System.
          4. Solution patterns provided a capability to view taxpayer account data stored in the
             CADE 2 database using Individual Master File online commands.
       D. Reviewed and assessed Prototype 3 (Penalty and Interest Calculation) team efforts to
          determine the adequacy of solution patterns for improving the efficiency of the
          penalty and interest calculations for use by the CADE 2 Program.
       E. Reviewed and assessed Prototype 4 (Performance Modeling and Monitoring) team
          efforts to determine whether:
          1. A performance model was developed defining the performance requirements and
             performance budgets for major design components.
          2. CADE 2 Program Transition State 1 performance requirements and performance
             budgets were developed for Prototype Team 2 (CADE 2 Database/Extract
             Transform and Load) and Prototype Team 3 (Penalty and Interest Calculation).
II.    Reviewed and assessed individual prototype team actions taken to manage prototype
       risks, including prototype vendor selection concerns. Specifically, we determined
       whether:
       A. Prototypes have sufficiently qualified staff to accomplish their objectives.
       B. The process used to identify business requirements for the prototypes was adequate.
       C. The work performed by the prototype teams specifically addressed the assigned
          objectives (i.e., scope management).
       D. The vendors working on the prototypes will be accorded an unfair competitive
          advantage resulting in an organizational conflict of interest.
       E. Appropriate security documentation for the prototype team contractors is in place.
       F. Appropriate Federal Government and IRS security guidelines are being considered as
          part of the prototype analyses.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: CADE 2 prototype activities,
development, and security provisions including the Enterprise Life Cycle; the work performed
by the Modernized Taxpayer Account solution teams, which identified risks associated with the

                                                                                         Page 19
                          Prototype Process Improvements Will Benefit
                     Efforts to Modernize Taxpayer Account Administration



CADE 2 Program prototype activities; and the initiation documents used as guidance for the
CADE 2 Program Management Office. We supported this work by interviewing CADE 2
Program Management Office executives, prototype team executive sponsors, project managers,
and team members, including contractor employees.




                                                                                    Page 20
                          Prototype Process Improvements Will Benefit
                     Efforts to Modernize Taxpayer Account Administration



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Scott A. Macfarlane, Director
Edward A. Neuwirth, Audit Manager
Bruce Polidori, Senior Auditor
Esther M. Wilson, Senior Auditor
Kevin Liu, Information Technology Specialist
David F. Allen, Auditor




                                                                                     Page 21
                         Prototype Process Improvements Will Benefit
                    Efforts to Modernize Taxpayer Account Administration



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Associate Chief Information Officer, Modernization Program Management Office OS:CTO:MP
Deputy Associate Chief Information Officer, Applications Development OS:CTO:AD
Deputy Associate Chief Information Officer, Business Integration OS:CTO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CTO:ES:SI
Director, Procurement OS:A:P
Director, Risk Management OS:CTO:SP:RM
Director, Test, Assurance, and Documentation OS:CTO:AD:TAD
Director, Strategy and Capital Planning OS:CTO:SP:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CTO:AD
       Associate Chief Information Officer, Enterprise Services OS:CTO:ES
       Director, Procurement OS:A:P
       Director, Program Oversight OS:CTO:SM:PO




                                                                               Page 22
                           Prototype Process Improvements Will Benefit
                      Efforts to Modernize Taxpayer Account Administration



                                                                                 Appendix IV

                    Enterprise Life Cycle Overview

The Enterprise Life Cycle is the IRS’s standard approach to business change and information
systems initiatives. It is a collection of program and project management best practices designed
to manage business change in a successful and repeatable manner. The Enterprise Life Cycle
addresses large and small projects developed internally and by contractors.
The Enterprise Life Cycle includes such requirements as:
   •   Development of and conformance to an enterprise architecture.
   •   Improving business processes prior to automation.
   •   Use of prototyping and commercial software, where possible.
   •   Obtaining early benefit by implementing solutions in multiple releases.
   •   Financial justification, budgeting, and reporting of project status.
In addition, the Enterprise Life Cycle improves the IRS’s ability to manage changes to the
enterprise; estimate the cost of changes; and engineer, develop, and maintain systems effectively.
Figure 1 provides an overview of the phases and milestones within the Enterprise Life Cycle. A
phase is a broad segment of work encompassing activities of similar scope, nature, and detail and
providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting and
ends with an executive management decision point (milestone) at which IRS executives make
“go/no-go” decisions for continuation of a project. Project funding decisions are often associated
with milestones.




                                                                                          Page 23
                               Prototype Process Improvements Will Benefit
                          Efforts to Modernize Taxpayer Account Administration



                   Figure 1: Enterprise Life Cycle Phases and Milestones

              Phase                             General Nature of Work                     Milestone
 Vision and Strategy/               High-level direction setting. This is the only
 Enterprise Architecture            phase for enterprise planning projects.                    0
 Phase
 Project Initiation Phase           Startup of development projects.                           1
 Domain Architecture Phase          Specification of the operating concept,
                                                                                               2
                                    requirements, and structure of the solution.
 Preliminary Design Phase           Preliminary design of all solution components.             3
 Detailed Design Phase              Detailed design of solution components.                   4A
 System Development Phase           Coding, integration, testing, and certification of
                                                                                              4B
                                    solutions.
 System Deployment Phase            Expanding availability of the solution to all target
                                    users. This is usually the last phase for                  5
                                    development projects.
 Operations and Maintenance         Ongoing management of operational systems.              System
 Phase                                                                                     Retirement
Source: The Enterprise Life Cycle Guide.




                                                                                               Page 24
                                 Prototype Process Improvements Will Benefit
                            Efforts to Modernize Taxpayer Account Administration



                                                                                          Appendix V

     Customer Account Data Engine 2 Transition States

Figures 1 through 4 present conceptual models of the As Is, Transition States 1 and 2, and Target
State processing flows for individual income tax accounts.
                                        Figure 1: As Is Processing




    Note: R2 CPE – Return to Current Processing Environment.1
    Source: Customer Account Data Engine (CADE 2) Program TIGTA 4th Quarter Briefing, December 15, 2009.




1
    See Appendix VI for a glossary of terms.
                                                                                                  Page 25
                            Prototype Process Improvements Will Benefit
                       Efforts to Modernize Taxpayer Account Administration



                      Figure 2: Transition State 1 Processing Plan




Note: R2 CPE – Return to Current Processing Environment, CFOL – Corporate Files On-line, IDRS – Integrated
Data Retrieval System.
Source: Customer Account Data Engine (CADE 2) Program TIGTA 4th Quarter Briefing, December 15, 2009.




                                                                                                  Page 26
                     Prototype Process Improvements Will Benefit
                Efforts to Modernize Taxpayer Account Administration



               Figure 3: Transition State 2 Processing Plan


  Transition State 2
  Single System - Customer Account Data Engine (daily)
  Addresses Financial Material Weaknesses
  Applications structured to use database
  Downstream systems start to leverage database

                                        Customer
                  Input                 Account
               Transactions               Data
                                         Engine




                                                                      Downstream
                                                                       Systems
                                       Target Database
                                       Fully Populated




                                               Integrated Production Model

Source: Customer Account Data Engine (CADE 2) Program TIGTA 4th Quarter Briefing,
December 15, 2009.




                                                                                    Page 27
                      Prototype Process Improvements Will Benefit
                 Efforts to Modernize Taxpayer Account Administration



                    Figure 4: Target State Processing Plan




Source: Customer Account Data Engine (CADE 2) Program TIGTA 4th Quarter Briefing,
December 15, 2009.




                                                                                    Page 28
                             Prototype Process Improvements Will Benefit
                        Efforts to Modernize Taxpayer Account Administration



                                                                               Appendix VI

                               Glossary of Terms

Term                            Definition
Business Master File            The Business Master File is the IRS database that consists of
                                Federal tax-related transactions and accounts for businesses.
                                These include employment taxes, income taxes on businesses,
                                and excise taxes.
Common Operating                All computers in a common operating environment use the
Environment                     same operating system, the same programs, and the same
                                icons. This provides standardization and makes
                                administration of each computer an easier task to perform.
Computing Center                Supports tax processing and information management through
                                a data processing and telecommunications infrastructure.
Core Data Store                 Provides the system of record for all tax return processing that
                                replaces the tape-based Master File systems and the current
                                CADE system.
Corporate Files On-Line         This system provides online transactional access to Individual
                                and Business Master File data, Information Return Program
                                data, and various other related data collections. These files
                                are accessed via IRS-developed Customer Information
                                Control System command codes.
Current Processing              The IRS’s existing entire Information Technology
Environment                     environment including business applications, data stores, data
                                interfaces and processing flows, infrastructure, and
                                Information Technology services, as well as involved
                                organizations, locations, processes, policies, and people.
Enterprise Life Cycle           A structured business systems development method that
                                requires the preparation of specific work products during
                                different phases of the development process.
Federal Acquisition Regulation The codification and publication of uniform policies and
                               procedures for acquisition by all Executive Branch agencies.



                                                                                        Page 29
                          Prototype Process Improvements Will Benefit
                     Efforts to Modernize Taxpayer Account Administration




Term                            Definition
Firewall – Organizational       Information about a project and personnel with access to
Conflict of Interest            protected information in one part of a company, preventing
                                other parts of the company from having knowledge or
                                influence over a project.
Individual Master File          The IRS database that maintains transactions or records of
                                individual tax accounts.
Individual Master File On-Line This system provides online transactional access to Individual
Processing                     Master File data.
Informatica                     A comprehensive, open, unified, and economical data
                                integration platform which supports all five steps in the data
                                integration life cycle. It sustains all roles involved in data
                                integration – data stewards, data analysts, architects,
                                administrators, and developers.
Infrastructure                  The fundamental structure of a system or organization. The
                                basic, fundamental architecture of any system (electronic,
                                mechanical, social, political) determines how it functions and
                                how flexible it is to meet future requirements.
Integrated Data Retrieval       An IRS mission-critical system consisting of databases and
System                          programs supporting IRS employees working active tax cases.
                                It manages data retrieved from the Master File, allowing IRS
                                employees to take specific actions on taxpayer account issues,
                                track status, and post updates back to the Master File.
Integrated Master Schedule      The Integrated Master Schedule provides a schedule for
                                project development and integration of all modernization
                                projects.
Integrated Production Model     Intended to be a data store to meet IRS needs for data
                                analytics and long-term reporting, and as a source for other
                                types of analytic data that supplement the transactional core
                                data store.
Java Programming Language       A computer programming language that is general-purpose,
                                concurrent, class-based, and object-oriented, and is
                                specifically designed to have as few implementation
                                dependencies as possible. It is intended to let application
                                developers “write once, run anywhere.”


                                                                                         Page 30
                           Prototype Process Improvements Will Benefit
                      Efforts to Modernize Taxpayer Account Administration




Term                          Definition
Live Data                     A form of Sensitive But Unclassified data that includes
                              taxpayer information, tax return information, live employee
                              data, and other sensitive information.
Master File                   The IRS database that stores various types of taxpayer account
                              information. This database includes individual, business, and
                              employee plans and exempt organizations data.
Physical Design               Describes how the processing will be performed (e.g., whether
                              data are input by a person or read by a bar code reader and
                              whether a file is electronic or print). Tools to represent the
                              physical design include system flowcharts and structure
                              charts.
Relational Database           A relational database is a collection of data items organized as
                              a set of formally described tables from which data can be
                              accessed or reassembled in many different ways without
                              having to reorganize the database tables.
Release                       A specific edition of software.
Tax Module                    A tax module contains records of tax liability and accounting
                              information pertaining to one tax period. Each tax module
                              contains groups of data including assessed tax liability,
                              payments and other credits, balance due amounts, refund
                              checks sent, and other accounting information relating to a
                              specific tax period.




                                                                                      Page 31
            Prototype Process Improvements Will Benefit
       Efforts to Modernize Taxpayer Account Administration



                                                  Appendix VII

Management’s Response to the Draft Report




                                                          Page 32
     Prototype Process Improvements Will Benefit
Efforts to Modernize Taxpayer Account Administration




                                                   Page 33
     Prototype Process Improvements Will Benefit
Efforts to Modernize Taxpayer Account Administration




                                                   Page 34
